   AUDIT REPORT
U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
 New Hampshire, Fish and
  Game Department, from
    July 1, 2001, through
        June 30, 2003




 Report No. R-GR-FWS-0009-2004

                      March 2005
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                       External Audits
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191


                                                                                  March 31, 2005


                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of New Hampshire, Fish and Game Department,
           from July 1, 2001, through June 30, 2003 (No. R-GR-FWS-0009-2004)

        This report presents the results of our audit of costs claimed by the State of New
Hampshire, Fish and Game Department (Department), under its Federal Assistance grants from
the U.S. Fish and Wildlife Service (FWS). The audit included claims that totaled approximately
$8.2 million on FWS grants that were open during the State’s fiscal years ended June 30, 2002
and 2003 (see Appendix 1). The audit also included a review of the Department’s compliance
with certain regulatory and other requirements, including those related to the collection and use
of State hunting and fishing license revenues and the reporting of program income.

        We questioned costs of $44,726 for media equipment usage charges that were not
supported. We also found that the Department had not implemented recommendations made in
our prior audit report regarding the Department’s inability to reconcile its Federal Aid
Accounting System to the New Hampshire Integrated Financial System.

       FWS Region 5 responded to a draft of this report on March 15, 2005, and included the
Department’s March 14, 2005 response to FWS. Based on the Department’s response, we made
minor changes to the report to clarify issues and correct inaccuracies. We also summarized the
FWS and Department responses after the recommendations and added our comments on the
responses. The status of the recommendations is summarized in Appendix 3.
        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the findings and recommendations included in this report by July 1, 2005.
Your response should include information requested in Appendix 3. If you have any questions
regarding this report, please contact me at 703-487-5345 or Mr. Tom Nadsady, Audit Team
Leader, at (916) 212-4164.

cc:   Regional Director, Region 5
       U.S. Fish and Wildlife Service




                                               2
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

Scope, Objective, and Methodology

We performed our audit at the New Hampshire Fish and Game Department (Department)
headquarters in Concord, New Hampshire. The audit work at the Department included claims
that totaled approximately $8.2 million on FWS grants that were open during the State’s fiscal
years (SFYs) ended June 30, 2002 and 2003 (see Appendix 1). We also visited a waterfowl
management area, 3 fish hatcheries, 4 wildlife management areas, 4 regional offices, a
conservation area, a youth conservation camp, and 13 boat access facilities (see Appendix 2).
The objective of our audit was to evaluate:

               ¾ the adequacy of the Department’s accounting system and related internal controls;
               ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                 Federal Assistance grant agreements with FWS;
               ¾ the adequacy and reliability of the Department’s hunting and fishing license fees
                 collection, certification, and disbursement processes;
               ¾ the adequacy of the Department’s asset management system and related internal
                 controls with regard to purchasing, control, and disposal; and
               ¾ the adequacy of the State’s compliance with the Acts’ assent legislation
                 requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants; interviews with employees to ensure that personnel costs charged to
the grants were supportable; and a review of the Department’s use of fishing and hunting license
revenues to determine whether the revenues had been used for program purposes. We did not
evaluate the economy, efficiency, or effectiveness of the Department’s operations.




1
    As amended, 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively
                                                         3
Prior Audit Coverage
On November 30, 2000, we issued audit report No. 01-E-61, “U.S. Fish and Wildlife Service
Federal Aid Grants to the State of New Hampshire Fish and Game Department, for Fiscal Years
Ended June 30, 1997 and 1998.” In addition, the New Hampshire Office of Legislative Budget
Assistant (LBA), Division of Audits, issued Single Audit reports on the State for SFYs 2002 and
2003 and a separate report, “State of New Hampshire Fish and Game Fund, Financial and
Compliance Audit Report for the Fiscal Year Ended June 30, 2003.” The results of our review of
these reports follows:

   ¾ For our November 2000 report, we followed up on all significant recommendations to
     determine the status of their resolution. We found that four recommendations remained
     unresolved. The four recommendations related to the Department’s inability to reconcile
     its Federal Aid Accounting System (FAAS) to the New Hampshire Integrated Financial
     System (NHIFS). Accordingly, we have included a discussion of the current status of the
     issue in this report (see Finding B) and updated and reiterated the recommendations to
     reflect current conditions.

   ¾ Our review of the Single Audit reports issued by the LBA for SFYs 2002 and 2003
     disclosed that the Department was not considered a major program in either audit, and
     none of the reported findings impacted the Fish and Game Department’s Federal
     Assistance grant program.

   ¾ Our review of the LBA’s report and selected working papers on its audit of the
     Department’s Fish and Game Fund indicated that a thorough review of the Department’s
     financial operations and internal controls had been performed, which resulted in a clean
     opinion on the financial statements of the Fund. The report on internal controls noted 2
     material weaknesses and 46 nonmaterial weaknesses, all of which the Department had
     either already corrected or agreed to correct. One of the material weaknesses identified
     in the report was the systems reconciliation issue, which was noted in our November
     2000 report and is addressed in our current report. The other material weakness was
     related to the general internal control environment, which the Department has already
     initiated action to improve. We considered the reported nonmaterial control weaknesses
     with a potential effect on Federal Assistance grants, as appropriate, in our testing.




                                               4
                                        Results of Audit
We found that the Department was generally in compliance with applicable regulations and grant
accounting requirements. Specifically, we noted the following:

      ¾ Except for finding A below, the direct and indirect costs we tested were accurately
        reported and claimed;

      ¾ The Department’s hunting and fishing license fees collection, certification, and
        disbursement processes were adequate and reliable;

      ¾ The asset management system was adequate for identifying and tracking personal and
        real property with regard to acquisition, control, and disposal; and

      ¾ The State had adequate legislation that assented to the provisions of the Acts and
        prohibited the use of license fees for any purpose other than the administration of the
        Department.

However, we found that:

      A. The Department did not have adequate support for $44,726 charged to two grants for
         media equipment used in the production of television programs.

      B. The Department cannot reconcile its accounting system to the State’s financial
         accounting system. This finding was included in our prior report.


A. Unsupported Charges of $44,726 for Media Equipment
The Department charged $19,883 (Federal share $14,912) to Grant FW-29-06 and $24,843
(Federal Share $18,632) to Grant FW-29-05 for media equipment usage. This equipment was
owned and used by the State to produce television programs as part of its public outreach efforts.
The charges were based on rates developed by the Department using quotes obtained from three
vendors. Although there was documentation of the quotes received from the vendors, there was
no documentation showing how the Department developed its rates.

According to OMB Circular A-87,2 “rental rates under less-than-arms length leases are allowable
only up to the amount that would be allowed had title to the property vested in the governmental
unit.” The Circular goes on to define less-than-arms-length as including the circumstance where,
“both parties are part of the same governmental unit.” Since the media equipment was owned by
the State, the Department should have recovered the cost of the equipment for the State through


2
    Attachment B, Cost Item Number 38
                                                  5
application of a use allowance based on the actual acquisition cost of the equipment.3 Because
the Department used an inappropriate method for charging the use of the media equipment to the
two grants, we consider the entire $44,726 charged to be unsupported.

           Recommendations
           We recommend that FWS:

           1. Resolve the unsupported costs of $44,726.

           2. Require the Department to develop and apply usage rates, based on the acquisition
              cost of the equipment, when claiming costs for media equipment.

           Department Response
           The Department did not concur with the finding. The Department stated that it charged
           the grants for equipment usage using a method it believed was appropriate and
           reasonable. The hourly rates used were based on quotes obtained from the marketplace
           and the Department used the lowest rates quoted for each service. The Department feels
           that at a minimum, there should be some value to the equipment usage that could be
           supported. In addition, the Department stated that the excess state share would offset all
           of the costs identified as unsupported for Grant FW-29-0-5.

           FWS Response
           FWS concurred that some value of the equipment usage charges should be supported and
           that the Department had cost overruns of $64,140 on grant FW-29-0-5.

           OIG Comments
           We agree that some portion of the amounts charged to the two Federal Assistance grants
           for equipment usage would be appropriate but we do not agree that the use of rates from
           vendor quotes results in appropriate and reasonable charges. We believe that using
           vendor-quoted rates likely results in excessive charges because the rates include a profit
           factor while a use allowance is based on costs only. We also agree that it would be
           appropriate to offset unsupported costs by any overruns that were reported on the
           FS 269. We did not, however, have documentation at the time of our review showing that
           an overrun had been incurred or reported. We suggest that the Department reconsider the
           development of equipment usage rates for any State-owned equipment used on Federal
           Assistance grants in the future. We consider this finding unresolved and the
           recommendations not implemented.




3
    The derivation of a use allowance is discussed in Attachment B of the Circular under Cost Item 15.
                                                           6
B. Reconciliation of the Department and State Accounting Systems
Our prior audit found that the Department did not have the ability to reconcile its accounting
system (FAAS) to the State’s financial accounting system (NHIFS). The Department’s FAAS is
a vender-produced software program that was modified by the Department to facilitate Federal
Assistance accounting and reporting. FAAS operates as a stand-alone system that does not
interface with NHIFS. The audit report contained four recommendations to resolve the
reconciliation issue.

However, due to the delayed implementation of a new State financial accounting system, the
Department has been unable to take the corrective actions needed to resolve these
recommendations. According to a May 2004 memorandum from FWS Federal Assistance
officials in Region 5 to the Washington Office regarding the resolution of the recommendations
in our November 2000 report, a new statewide accounting system would be implemented by end
of SFY 2005. However, Department officials stated that implementation has now been delayed
to SFY 2006. The memorandum also indicated that four recommendations that “concern the
creation of a financial system that can be reconciled to the State system,” remained
unimplemented. These recommendations were stated as follows:

   ¾ The grantee should create a system that can be reconciled to the State’s accounting
     system; establish and implement requirements for password control at a managerial level;
     and establish written policies and procedures addressing application controls over
     transaction input, processing, and output. (Prior Recommendation 8)

   ¾ The grantee’s new policies and procedures should be evaluated in the future and
     monitored for adequacy and effectiveness. (Prior Recommendation 9)

   ¾ The grantee should establish procedures that require the total labor costs distributed to
     grants be reconciled with the labor distribution generated by NHIFS. (This
     recommendation (prior Recommendation 10) addressed an issue regarding the use of
     different employee labor rates in the two systems.)

   ¾ The grantee should conduct a follow-up review to determine if its corrective action steps
     adequately address the labor reporting system deficiency. (Prior Recommendation 12)

As stated in the LBA report (see Prior Audit Coverage), the inability to reconcile the Department
and State accounting systems is a material weakness in properly accounting for Federal
Assistance grant costs. Accordingly, we are restating the recommendation on reconciling the
two systems.

       Recommendation
       We recommend that FWS monitor the implementation of the new statewide financial
       accounting system and ensure that the Department implements an accounting system for
       Federal Assistance grants that is capable of being reconciled to the State’s new system,
       including the reconciliation of labor costs on Federal Assistance grants.
                                                7
Department Response
The Department stated that an Acquisition and Implementation Request for Proposals
was issued at the end of SFY 2004, but that at this time it is not possible to say precisely
when a new system will be in place.

FWS Response
The FWS concurred with the finding.

OIG Comments
Based on the Department and FWS responses and the uncertainty as to when a new State
accounting system will be in place, we consider the finding unresolved and the
recommendation not implemented.




                                          8
                                                                                                Appendix 1

         NEW HAMPSHIRE FISH AND GAME DEPARTMENT
          FINANCIAL SUMMARY OF REVIEW COVERAGE
                Grant                Grant            Claimed             Unsupported Costs**
               Number               Amount             Costs*           Total       Federal Share
           A-2-O-1                        $15,000            $15,000
           F-50-R-18                      635,850            402,596
           F-50-R-19                      588,000            441,000
           F-53-E-15                      380,000            228,445
           F-53-E-16                      372,000            246,141
           F-60-D-9                     1,485,000         1,113,750
           F-60-D-10                    1,833,500         1,100,100
           F-61-R-8                       280,000            137,818
           F-61-R-9                       272,000            185,888
           F-61-R-10                      276,000            196,043
           F-100-R-18                       6,400              4,764
           F-100-R-19                       5,760              3,749
           F-100-R-20                       5,000              2,819
           FW-17-C-27                      76,000             50,288
           FW-17-C-28                      79,200             52,361
           FW-23-D-12                     200,000             80,322
           FW-23-D-13                      80,000             37,556
           FW-25-T-8                      292,000            235,418
           FW-25-T-9                      365,800            210,614
           FW-27-D-7                       32,000             11,075
           FW-27-D-13                      20,500              8,247
           FW-28-D-7                      158,185            118,102
           FW-28-D-8                      240,120            176,050
           FW-29-O-4                      334,000            225,608
           FW-29-O-5                      198,000            148,500      $24,843            $18,632
           FW-29-O-6                      282,667            197,621       19,883             14,912
           FW-30-T-3                      115,000             57,499
           FW-30-T-4                      104,000             62,801
           W-11-D-61                      284,500            153,359
           W-11-D-62                      176,000            107,887
           W-66-S-30                      376,000            218,257
           W-66-S-31                      413,760            312,720
           W-87-D-2                       781,683            606,944
           W-89-R-2                       921,000            568,939
           W-89-R-3                       664,300            498,225
                                      $12,349,225        $8,216,506       $44,726            $33,544

∗
 Includes the amounts recorded during the audit period, including indirect costs.
** See Finding A


                                                         9
                                              Appendix 2

NEW HAMPSHIRE FISH AND GAME DEPARTMENT
             SITES VISITED
                   Regional Offices
                       Durham
                        Keene
                      Lancaster
                    New Hampton

             Wildlife Management Areas
                    Bellamy WMA
                     Enfield WMA
                    Fort Hill WMA
                 Jones Brook WMA

                     Hatcheries
                        Berlin
                    New Hampton
                    Twin Mountain

                Boat Access Facilities
                      Cedar Pond
                     Crystal Lake
                     George Pond
                     Hopkins Pond
                    Hot Hole Pond
                      Lucas Pond
                 Mount William Pond
                       Nay Pond
            Sewalls Falls (Merrimack River)
                     Swains Pond
                      Turee Pond
                   Turtletown Pond
                     Willand Pond

              Hunter Education Center
                    Owl Brook

            Waterfowl Management Area
                Merrymeeting Marsh

                 Conservation Area
                   Knights Pond

             Youth Conservation Camp
                    Camp Barry



                          10
                                                                        Appendix 3

      NEW HAMPSHIRE FISH AND GAME DEPARTMENT
                  STATUS OF AUDIT FINDINGS
                   AND RECOMMENDATIONS

 Recommendation         Status                     Action Required
A.1, A.2, and B   Finding Unresolved    Provide a corrective action plan that
                  and                   identifies the actions taken or planned to
                  Recommendations Not   resolve the finding and implement the
                  Implemented.          recommendations, or provide an
                                        alternative solution. The plan should also
                                        include the target date and the title of the
                                        official responsible for implementing
                                        each recommendation. The
                                        unimplemented recommendations
                                        remaining at the end of 90 days (after
                                        July 1, 2005) will be referred to the
                                        Assistant Secretary for Policy,
                                        Management and Budget for resolution
                                        and/or tracking of implementation.




                                 11
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
